GR-80-99-003
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Manvel Police Department
Manvel, Texas
GR-80-99-003
 
December 21, 1998
 
* * * * *
EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of two
grants awarded by the U.S. Department of Justice, Office of Community Oriented Policing
Services, to the City of Manvel Police Department, Manvel, Texas. The City received a
grant of $73,361 to hire one officer under the Funding Accelerated for Smaller Towns
(FAST) program, a supplemental award of $183,947 to hire three officers under the
Universal Hiring Program (UHP), and a second identical UHP supplemental award of $183,947
to hire three additional officers, for a total of seven officers. As of September 30,
1998, the City of Manvel (City) had not accepted the second UHP supplemental award. The
purpose of the additional grant officers was to enhance community policing.
The City did not comply with the terms and conditions of the grants. Specifically, the
City failed to implement, enhance, or augment community policing efforts with the awarded
grant funds or develop a formal retention plan for retaining the grant-funded positions.
Therefore, we are questioning $73,361 of the FAST grant and $72,063 of the UHP
supplemental funds.
We found the following discrepancies with regard to meeting grant conditions:


City officials overstated entry-level salary and fringe benefits in the FAST grant
    application by $19,209, even though they had been told that these costs were inflated.


The City requested reimbursements and advances based on inflated budgeted salary and
    fringe benefits rather than actual costs, thereby depleting the FAST funds in 27 months.


The City drew excess grant funds of $17,917 on the UHP award and placed the funds in the
    City's general fund.


The City did not implement, enhance, or augment community policing.


The City did not have procedures to ensure that accurate, actual grant revenues and
    expenditures were properly accounted for.


The City commingled FAST grant funds with other Federal funds.


The City drew $54,146 for UHP grant-funded officers from January 1, 1997,
    through September 30, 1997, even though officers were not sworn in until September
    30, 1997.


The grant-funded officers were not trained in community policing.


The City did not annually decrease the Federal share rate in requests for reimbursements
    or advances.


The City did not develop any type of retention plan for continuing the employment of the
    grant-funded officers at the end of the grant period.


The Police Department's Annual Report for 1996 was submitted late and described
    community policing activities that could not be verified.


The Police Department submitted an Officer Progress Report for 1996 that described
    community policing activities that could not be substantiated.


The City submitted Financial Status Reports that were not supported by the City's
    accounting records.


The City did not submit Financial Status Reports for the second quarter of 1998.


The Police Department did not submit four Officer Progress Reports for 1997.


The Police Department did not submit an Annual Report for 1997.

These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix I, and our schedule of dollar-related
findings is at Appendix II.
#####